October 30, 1998

TO: THE COMMISSION AND THE UNITED STATES CONGRESS

I hereby submit this Semiannual Report: April 1 - September 30, 1998, which
summarizes the major activities and accomplishments of the Office of Inspector General
(OIG), U.S. International Trade Commission. The submission of this report is in
accordance with the Inspector General Act of 1978, as amended (IG Act). Section 5 of
the IG Act requires that the Chairman transmit this report to the appropriate committees
or subcommittees of the Congress within 30 days of its receipt.

The OIG issued one audit report this period, an Audit of Associated Management
Services, Inc. (AMSI) Wage Payment and Fringe Benefits. We found that AMSI
underpaid 18 employees by more than $100. AMSI underpaid wages and fringe benefits
by more than $7,000, and approximately $2,200 in holiday pay. Additionally $940.89 in
questioned costs were identified. On May 27, 1998, AMSI submitted a check to the
Commission for $940.89. On June 5, 1998, AMSI provided proof of payment of
$9,238.66 in wages and fringe benefits underpayments to 18 employees.

The OIG completed an investigation of the Commission’s car pool subsidy program and
found twelve subjects who were violating provisions of the program. Five subjects were
referred to the U.S. Attorney’s office for prosecution. The U.S. Attorney’s office declined
to prosecute. All twelve subjects were referred to the appropriate office directors for
administrative disposition.

During this period, the OIG issued two inspection reports. In a Review of Commission
Policies for Marking Controlled Data, we found that the Commission policies were
inconsistent for controlled data other than national security or confidential business
information. Office directors stated a clearer policy would be both beneficial and
welcomed for other controlled data, such as privileged documents and Privacy Act
information.

In a Review of the Activity Reporting Systems, we found that duplicate recording systems
had been discontinued, and the activity codes were simplified. However, use of the data
being gathered was limited to budgetary reporting and no managers were using the
information on staff hours. We suggested the Budget Committee review the existing codes
and proposed revisions to ensure needed data is provided.
September 1998 Semiannual Report
The upcoming 20th anniversary of the passage of the IG Act generated substantial
discussion of possible legislation and congressional hearings. We submitted suggestions
for possible amendments and commented on proposed amendments to the IG Act. These
amendments were generally intended to improve the independence and efficiency of OIGs
by implementing changes concerning budget, term limits, and personnel authority. The
OIG also commented on documents submitted to the Senate Committee on Governmental
Affairs for inclusion in the hearing record on similar issues.

During this period, we noted several audit and inspection topics were addressed in
newspaper articles. Agencies were criticized for not taking timely action to protect Privacy
Act information, improve building security, and combat computer software piracy. At the
Commission, the OIG had conducted reviews that identified these deficiencies and
recommended corrective actions. Some of the actions, such as rulemaking and building
renovations, took considerable time and effort to be completed. The Commission efforts
to take timely action are commendable.

I appreciate the support of all Commission employees in achieving the accomplishments
set forth in this report.



                                                    Jane E. Altenhofen
                                                    Inspector General
          September 1998 Semiannual Report
COMMISSION PROFILE

                The Commission is a quasi-judicial, independent, nonpartisan agency established by Congress
                with broad investigative powers on matters of trade. The Commission has a unique mission to
                develop factual, objective research and information on a wide variety of matters pertaining to
                international trade. Major Commission activities include: determining whether U.S. industries
                are materially injured by reason of subsidized imports or imports sold at less than fair value;
                directing action against such unfair trade practices as patent, trademark, and copyright
                infringement; conducting studies on tariff and trade issues; and participating in the development
                of statistical data on imports, exports, and domestic production and the establishment of an
                international harmonized commodity code.

                The Commission conducts investigations under several statutory provisions, generally upon
                petition or complaint, with respect to the impact of imports on U.S. industries. The Commission
                also provides advice and information, upon request, to the President and the Congress on tariff
                and trade matters. When appropriate, the Commission conducts public hearings and evaluates
                testimony and other information in making findings and recommendations. Decisions of the
                Commission under certain statutory provisions administered by the Commission are binding and
                subject to judicial review.

                The Commission has six Commissioners, appointed by the President and confirmed by the
                Senate, who serve one term of nine years, unless appointed to fill an unexpired term. The
                Chairman and Vice Chairman are designated by the President and serve a two-year statutory
                term. No more than three Commissioners may be of the same political party, and the Chairman
                must be of a different political party than the Chairman of the immediately preceding term. All
                six positions on the Commission are currently filled.

                During this period, several changes in the composition of the Commission occurred. In June
                1998, two designations were made concerning the Commission. Lynn M. Bragg was designated
                the Chairman for the term June 17, 1998, through June 16, 2000. Marcia E. Miller was
                designated as Vice Chairman for the same term.

                Also, in August 1998, the Senate confirmed the appointments of three individuals to become
                Commissioners. Commissioner Jennifer A. Hillman was appointed to serve a term expiring
                December 16, 2006. Commissioner Stephen Koplan will serve the remainder of the term
                expiring June 16, 2005. Commissioner Thelma J. Askey will serve the remainder of the term
                expiring on December 16, 2000.

                The Commission had an authorized staffing level of 502 permanent positions in Fiscal Year
                (FY) 1998 of which 385.5 positions were funded at the $41.2 million level. All of its employees
                are located in one building at 500 E Street, SW, Washington, D.C.

                More information about the Commission is available on the Internet:




September 1998 Semiannual Report                1
                           USITC: HOME PAGE                                  http://www.usitc.gov


THE OFFICE OF INSPECTOR GENERAL
The Commission established the Office of Inspector General (OIG) pursuant to the Inspector General Act
Amendments of 1988 (IG Act). The Inspector General reports directly to the Chairman, subject to the limitations
of section 331 of the Tariff Act of 1930 (19 U.S.C. §1331). The Inspector General is responsible for directing and
carrying out audits, investigations and inspections relating to Commission programs and operations. The Inspector
General also recommends and comments on proposed legislation, regulations and procedures as to their economy,
efficiency and effectiveness. Certain information and statistics that are required by section 5(a) of the IG Act to
be included in the Semiannual Reports are summarized in Attachment A.


RESOURCES

                           An appropriation was enacted on November 13, 1997, which includes $41,200,000 for
 FY 1998
                           the salaries and expenses of the International Trade Commission for FY 1998. The
                           OIG was allocated $50,000 for audit and review services in December 1997 and an
                           additional $40,000 in August 1998.

                           The final staffing plan, dated March 2, 1998, authorized three full-time equivalent
                           positions for permanent staff in the OIG based on a funding level of 385.5 positions.
                           This eliminated the excess staffing situation that existed in FY 1997.

                           Two students helped with the audit, inspection, and
                           investigative functions in the OIG. Rajini Hinduja
                           joined the OIG staff on April 10, 1998, and worked
                           through September 30, 1998. James Kwon joined the
                           staff on May 15, 1998, and worked through
                           September 25, 1998.

                           A new staff assistant, Karen M. Swindell, was hired
                           effective June 22, 1998. She is a former Commission
                           employee who worked in several other offices.




September 1998 Semiannual Report                   2
                       An appropriation was enacted on October 21, 1998, providing $44,495,000 for
 FY 1999               salaries and expenses for FY1999, although funding will terminate on June 15, 1999.
                       The Commission is developing a FY1999 expenditure plan.




September 1998 Semiannual Report             3
AUDIT ACCOMPLISHMENTS
                       The audit report issued this period was:
 Audits and
                               --      IG-03-98, Audit of Associated Management Services, Inc.
                                       (AMSI) Wage Payment and Fringe Benefits.

                       The audit report is summarized in Attachment B.

                       As of September 30, 1998, ongoing audits include:

                               --      Evaluation of the Commission’s Efforts to Prepare for Sunset
                                       Reviews;

                               --      Analysis of Methods Used to Format Publications;

                               --      Evaluation of Commission’s Preparation for the Year 2000
                                       Computing Crisis; and

                               --      Audit of the USITC Financial Statements for Fiscal Years 1998 and
                                       1997.

                       Pending actions on one audit report were completed. No reports have agreed-upon
 Audit Followup
                       actions not completed within one year.

                       IG-01-98, Evaluation of 332 Investigations. Management agreement was reached on
                       this report on February 27, 1998. The agreed upon actions were completed on
                       September 21, 1998. Actions completed this period included revising the Commission’s
                       332 manual to include guidance on time frames needed to conduct an investigation;
                       instructions for marking, handling, and safekeeping classified material; proper record
                       retention policies; and guidance on post-project assessments. The Office of Industries
                       also conducted a review of the workpapers for ongoing investigations and classified
                       reports to ensure documents are properly classified and marked.

                       During this period, the OIG noted several audit and inspection topics were addressed
 In the News
                       in newspaper articles. Agencies were criticized for not taking timely action in these
                       areas. At the Commission, the OIG had conducted reviews and office directors had
                       completed corrective actions as discussed below.

                       IG-01-97, Analysis of the USITC’s Privacy Act System of Records. Underscoring
                       the growing importance of personal privacy protections in the electronic information
                       age, President Clinton called upon all federal agencies to take further privacy-
                       protections steps, based largely on the Privacy Act of 1974, within the next year. On
                       May 14, 1998, President Clinton issued an executive memorandum to the heads of all
                       Federal departments and agencies, entitled, “Privacy and Personal Information in
                       Federal Records,” in which he directed each agency to designate a senior official with
                       responsibility for privacy policy, to conduct a series of reviews of agency record
                       systems in order to ensure compliance with Privacy Act requirements.


September 1998 Semiannual Report              4
                       The OIG issued a report on the USITC’s Privacy Act System of Records in March
                       1997. In response, the Commission reviewed and significantly revised its Privacy Act
                       regulations and systems of records notices. The notice of final rulemaking was effective
                       on June 8, 1998. The Commission also revised ITC forms to include a Privacy Act
                       statement, and issued an administrative announcement to provide employees
                       information about how the Commission maintains certain forms and records that
                       contain Privacy Act information.

                       IG-02-96, Review of Building Security. Several newspaper articles and the April
                       1998 semiannual report for the General Services Administration stated that some
                       federal offices remain little or no safer than when the Oklahoma City building was
                       destroyed three years ago. The Commission does not fall into this category as timely
                       action was taken in response to a Presidential memorandum issued on June 28, 1995,
                       that directed all executive agencies to immediately begin upgrading their facilities to
                       meet the recommended minimum security standards.

                       The OIG conducted a review of building security and issued an audit report in April
                       1996. Although the Commission had a generally effective building security program
                       in place, the OIG identified numerous areas that needed improvement or modification
                       to meet the standards set by the Department of Justice. The Office of Administration
                       promptly implemented the changes within the Commission’s control and available
                       funding. The Office of Administration, particularly the staff in Management Services,
                       worked on the more complex and expensive changes, such as the entry security and
                       controlled parking, for nearly two years to complete action on all of the
                       recommendations.

                       IG-01-96, Audit of the Local Area Network (LAN) Operations. According to an
                       Associated Press article, government agencies were described as probably the single
                       worst software pirates in the United States. The administration addressed this concern
                       in Executive Order (EO) 13103 of September 30, 1998, Computer Software Privacy.

                       The EO states that the United States government is the world’s largest purchaser of
                       computer-related services and equipment, purchasing more than $20 billion annually.
                       At a time when a critical component in discussions with our international trading
                       partners concerns their efforts to combat piracy of computer software and other
                       intellectual property, it is incumbent on the United States to ensure that its own
                       practices as a purchaser and user of computer software are beyond reproach. The EO
                       instructs Federal agencies to make sure that only paid-for software is used, prepare an
                       inventory of software on their computers and maintain record-keeping systems.

                       The OIG conducted an audit of LAN operations and issued a report in March 1996.
                       One finding was that the Commission did not have adequate procedures to assure that
                       it does not violate software copyright restrictions, and could not readily detect
                       violations. The Office of Information Services took corrective actions which included
                       establishing policy and preparing an initial inventory to identify and categorize
                       commercial software on agency systems.




September 1998 Semiannual Report               5
INSPECTIONS
                       During this period two inspection reports were issued.
 Reports Issued

                       Report No. 2-98, Review of Commission Policies for Marking Controlled Data,
 Controlled Data
                       May 1, 1998. The OIG initiated this inspection in February 1998 to review
                       Commission policies for marking controlled data. In general, we found that the policies
                       for marking controlled data were inconsistent. The primary inconsistency does not
                       threaten protections for national security or confidential business information. A clearer
                       Commission policy will be both beneficial and welcomed by many Commission
                       officials for other controlled data, such as privileged documents and Privacy Act
                       information.

                       The OIG suggested that the Chairman of the Information Security Committee:

                               --Amend the Commission’s Freedom of Information Act regulations to permit
                               those with an administrative relationship, with the Commission, such as
                               agency contractors, to receive notice before release of any documents
                               submitted to the Commission;

                               -- Draft policy that the word confidential as an administrative marking should
                               not be used except for confidential business information and national security
                               information; and

                               -- Establish a policy to standardize practice of administrative markings.

                       These suggestions are being addressed by the Office of Information Services which
                       is coordinating an effort to revise Commission directives on information security.




September 1998 Semiannual Report               6
                                   Consultant Bob Gellman with stamps accumulated by OIG




September 1998 Semiannual Report        7
                       Report No. 3-98, Review of the Activity Reporting Systems, June 8, 1998. In FY
 Activity              1996, the OIG conducted a review of the Commission systems for accumulating staff
 Reporting             hours by activity. The objectives of this review were to determine the required and
 Systems               desirable uses for information on Commission activities and evaluate whether the
                       appropriate information was being gathered in an efficient manner.

                       In October 1997, we notified the then Acting Director of Administration of the results
                       of our review. We reported that the data on staff hours was primarily used for budget
                       preparation and seldom used for management purposes. Duplicate systems to gather
                       data on work hours had been operating for two years, and would likely continue for a
                       third year. The activity codes were not clearly linked to the budget.

                       In May 1998, we followed up to determine what action had been taken since October
                       1997. We found use of the data being gathered was even further limited to just
                       budgetary reporting, as no managers were using the information on staff hours. The
                       duplicate recording systems had been discontinued after operating for three years. The
                       activity codes were simplified and more clearly linked to the budget.

                       We suggested that the Director of Administration coordinate with the Budget
                       Committee on the repercussions of the change in the activity codes on the budget
                       presentation, the appropriateness of the current codes to provide needed data, and the
                       planned revision of codes in the future.




                                                  Rajini Hinduja enters data on staff hours into
                                                  OIG Audit Management Information System

September 1998 Semiannual Report              8
September 1998 Semiannual Report   9
FRAUD, WASTE AND ABUSE
 Investigations          A summary of investigative activity is presented below:


                                  SUMMARY OF INVESTIGATIONS

         Case Workload                      Referrals Processed                      Investigative Results
   Open (04/01/98)       6               Received                  3              Referrals for             5*
                                                                                  Prosecution

   Initiated             3               Initiated Investigation   0              Referrals Declined for    5*
                                                                                  Prosecution

   Closed                4               Referred to Another       1              Subjects Pending          12
                                         Agency OIG                               Administrative Action

   Open (09/30/98)       5               Evaluated but No          2              *5 separate subjects referenced
                                         Investigation Initiated                  under one case file were
                                                                                  referred and each was declined.



                         Six cases were open at the beginning of this reporting period. Three cases were initiated
                         during this reporting period. Four cases were closed this period, two of which were
                         open as of March 31, 1998. The results of the wage payments referral, which was
                         addressed in an audit, are presented in Attachment B. The other cases involved
                         appropriateness of supervisory ratios, federal register charges, and finger print records.

                         Five cases remain open. These involve reimbursement of program functions,
                         procurement of an economic model, purchase of business card supplies, abuse of the
                         car pool subsidy, and healthcare fraud.

                          The OIG suggested that certain positions be reviewed to ensure supervisory positions
 Supervisory Ratios
                          are properly designated. Multiple changes were made. The data base was corrected to
                          reflect that the Budget Chief is a supervisor. Both Administrative Law Judges were
                          designated as supervisory on their position descriptions and in the data base. The
                         position descriptions of the attorney supervisors in the Office of the General Counsel
                         were revised to clarify the supervisory duties of those positions and the position
                         description for the Head Law Librarian was annotated to exclude supervisory duties.
                         The Office of Tariff Affairs and Trade Agreements was reorganized to implement a
                         ‘flat’ organizational structure.

                         The OIG completed its investigation of the Commission’s car pool subsidy program
 Car Pool                and found twelve subjects who were violating provisions of the program. Five of the
                         subjects were referred to the U.S. Attorney’s office for prosecution. The U.S.
                         Attorney’s office declined to prosecute. All twelve subjects were referred to the
                         appropriate office directors on September 2, 1998, for administrative disposition.




September 1998 Semiannual Report                  10
Review of Legislation, Regulations, and Commission Policy
                       As set forth in the IG Act, a duty and responsibility of the Inspector General is to
 Legislation and
                       review existing and proposed legislation and regulations relating to programs and
                       operations of the Commission. The OIG commented on amendments to the IG Act and
                       reviewed one final notice of amendments to the Commission’s rules of practice and
                       procedure.

                       On June 11, 1998, Senator Susan Collins introduced S. 2167, the Inspector General
 IG Act                Act Amendments of 1998, a bill to increase the efficiency and accountability of OIGs
 Amendments            within Federal departments. The bill established a nine-year term of office,
                       consolidated existing offices, and reduced reporting requirements

                       The Department of Labor OIG solicited input on significant provisions of the bill in
                       order to develop a synthesis of community views. On June 12, 1998, the Inspector
                       General provided input generally supporting the provisions of the bill, with clarification
                       on how the provisions should be applied to the designated Federal agencies. The
                       Inspector General submitted a letter to Senator Collins in July 1998 suggesting
                       additional amendments be considered. These included clarification of personnel
                       authority, budget, term limits/removal for cause, and relationship to management.

                       On June 17, 1998, the House Committee on Government Reform and Oversight
 House Committee
                       requested the inspectors general at designated federal entities to submit information on
 Request
                       resources. The Inspector General responded to this request in July 1998, and included
                       suggestions for amendments to the IG Act relating to staffing and resources.

                       On September 9, 1998, Senator Fred Thompson, Chairman of the Senate Governmental
 Hearing               Affairs Committee, held a public hearing on the state of the inspector general
                       community on the 20th anniversary of the IG
                       Act. The Inspector General participated in the
                       development of a “talking points” document
                       submitted to the Senate Committee on
                       Governmental Affairs in August 1998 for
                       inclusion in the hearing record. She also
                       submitted comments on a submission for the
                       hearing record presenting the views of the
                       designated federal entity inspectors general.



                       Amendments to Parts 201 and 207 of
 Sunset Reviews
                       Commission Rules of Practice and Procedure. On May 26, 1998, the OIG reviewed
                       the notice of procedures for the conduct of five-year reviews of antidumping and
                       countervailing duty orders and suspension agreements and provided comments. The
                       OIG said that Annex A should be clarified and missing words added; these changes
                       were made. The OIG comments that the definition and use of various terms be clarified
                       were not incorporated.



September 1998 Semiannual Report               11
                       The Inspector General also has the responsibility to review all proposed Commission
 Commission
                       directives. The OIG evaluates the impact that new or revised procedures will have on
                       economy and efficiency in the administration of programs and operations, and to
                       minimize the potential for fraud or abuse. OIG reviewed and commented on draft
                       internal rules concerning Circulation of Papers for Commission Approval and the
                       Ethics Program. Additionally, OIG reviewed the mission and functions statements for
                       the Offices of External Relations, Operations, Investigations and Equal Employment
                       Opportunity.

                       As previously reported, the OIG and the Offices of Administration, Management
                       Services, and Information Services made a substantial effort in preparing new policy
                       guidance to help correct the recurring problems with property management. USITC
                       Directive 3550.3, Property Management and Administrative Notice ITC-N-3550 on
                       Automated Data Processing Inventory Procedures were issued on June 1, 1998.

                       The Inspector General is also a member of the Directives Review Committee. Other
                       members are the Director of Administration, who is the Chairman, and staff from the
                       Offices of the Chairman, General Counsel, and Administration. The Committee has
                       made significant progress in revising the internal rules structure and process. Directive
                       0001.4, System of Internal Rules was approved on June 1, 1998. Work has begun on
                       an Administrative Notice with instructions for preparing directives. The Committee
                       also reviewed the mission and functions statements for each office and made
                       recommendations for improvements and standardization. The revised statements were
                       approved in July 1998.

                       The OIG converted one administrative order on review of legislation and regulations
 Policy for OIG        into a directive. Directive 1704, Review of Legislation and Regulations, was approved
                       by the Chairman on May 29, 1998.




September 1998 Semiannual Report               12
LIAISON ACTIVITIES

                       The Inspector General is an active member of the inspector general community. She
 ECIE/PCIE
                       is a member of the Executive Council on Integrity and Efficiency (ECIE), which
                       consists primarily of the inspectors general at the 34 Federal entities designated in the
                       1988 amendments to the IG Act. She also participates in activities sponsored by the
                       President's Council on Integrity and Efficiency (PCIE), which consists primarily of the
                       Presidentially-appointed inspectors general. The ECIE and PCIE have identical
                       functions and joint responsibility to promote integrity and efficiency and to detect and
                       prevent fraud, waste, and abuse in Federal programs.

                       In the prior period, the Inspector General participated in an ad hoc committee preparing
                       a response to the American Institute of Certified Public Accountants (AICPA).
                       Language proposed by the AICPA’s Ethics Committee on independence excluded some
                       statutory government auditors. The suggested language was not incorporated into the
                       AICPA exposure draft issued for comments. The Inspector General submitted
                       comments to the AICPA on July 15, 1998, and an August 7 letter signed by multiple
                       ECIE inspectors general. These letters repeated the request to clarify the AICPA
                       language to include all statutory inspectors general.

                       The Committee also reviewed various documents for definitions of independence.
                       Members contacted staff at the General Accounting Office (GAO) about desired
                       changes in the Government Auditing Standards. The Inspector General joined several
                       members in attending a September meeting of the Advisory Committee, which was
                       discussing potential revisions to the independence section of the Standards.

                       The IG Act states that each inspector general shall give particular regard to the
 GAO
                       activities of the Comptroller General of the United States with a view toward avoiding
                       duplication and ensuring effective coordination and cooperation.

                       The GAO initiated two reviews during this period. These were Phase II of the Review
                       of the Inspector General Community, and a Review of Electronic Data Exchanges.

                       GAO issued four reports entitled:

                               -- FINANCIAL AUDIT 1997 Consolidated Financial Statements of the
                                  United States Government (GAO/AIMD-98-127), March 31, 1998;

                               -- INSPECTORS GENERAL Efforts to Develop Strategic Plans
                                  (GAO/AIMD-98-112), June 12, 1998;

                               -- CHINA TRADE WTO Membership and Most-Favored-Nation Status
                                  (GAO/T-NSIAD-98-209), June 17, 1998; and

                               -- YEAR 2000 COMPUTING CRISIS Actions Needed on Electronic Data
                                   Exchanges (GAO/AIMD-98-124), July 1, 1998.

                       These reports included no recommendations for the Commission.

September 1998 Semiannual Report               13
                                                                                              Attachment A


INFORMATION REQUIRED BY THE ACT

Certain information and statistics based on the activities accomplished during this period are required by section
5(a) of the IG Act to be included in the semiannual reports. These are set forth below:

Section 5(a)

(1), (2), (7)    The OIG did not identify any significant problems, abuses or deficiencies relating to the
                 administration of programs.


(3)              Corrective action has been completed on all significant recommendations which were described
                 in the previous semiannual reports. See page 3 discussion on Audit Follow-up.


(4)              Five matters were referred to prosecutorial authorities. There were no prosecutions or
                 convictions.


(5)              No reports were made to the Chairman that information or assistance requested by the Inspector
                 General was unreasonably refused or not provided.


(6)              A listing by subject matter is located in Attachment C.


(8), (9)         One audit report was issued during this period; one report had recommendations on questioned
                 costs or funds that could be put to better use. See Tables 1 and 2.


(10)             There are no audit reports issued before the commencement of the reporting period for which no
                 management decision has been made by the end of the reporting period.


(11)             No significant revised management decisions were made during the reporting period.


(12)             There were no significant management decisions with which I am in disagreement.




September 1998 Semiannual Report                   14
                                                                                              Attachment B


SUMMARY OF AUDIT REPORT

Title:                 Audit of Associated Management Services, Inc. (AMSI) Wage Payment and
                       Fringe Benefits

Report Number:         IG-03-98

Report Date:           June 22, 1998

Findings:              The objective of this audit was to determine if AMSI complied with the McNamara-
                       O’Hara Service Contract Act of 1965, as amended which governs wage and fringe
                       benefits paid to contract employees during FYs 1994 through 1997.

                       We found that AMSI under paid 18 employees by more than $100 based on the
                       combined wage and fringe benefits underpayment and maximum holiday
                       underpayment. AMSI underpaid wages and fringe benefits totaling $7,051.46, and
                       approximately $2,187.20 in holiday pay. Additionally $940.89 in questioned costs were
                       identified.

Recommendations:       We recommended that the Director of Administration:

                       -- Request AMSI to pay wages and fringe benefits due to all contract workers detailed
                       in the audit; and

                       -- Recover questioned costs from AMSI.

                       On May 20, 1998, the Director of Administration requested that AMSI, in accordance
                       with the findings of the audit, pay employees for back wage payments and fringe
                       benefits. Additionally, AMSI was requested to forward $940.89 in questioned costs
                       to the Commission. On May 27, 1998, AMSI submitted a check to the Commission for
                       $940.89. On June 5, 1998, AMSI provided proof of payment of $9,238.66 in wages
                       and fringe benefits underpayments to 18 employees.




September 1998 Semiannual Report              15
                                                                             Attachment C


AUDIT REPORTS BY SUBJECT MATTER

                                                                           Funds To
         Report          Report    Questioned   Unsupported   Ineligible   Be Put To
          Title          Number      Costs         Costs        Costs      Better Use


  ADMINISTRATION

  Audit of Associated   IG-03-98    $940.89
  Management
  Services, Inc. Wage
  Payment and Fringe
  Benefits




September 1998 Semiannual Report         16
                                                                                     Table 1


        REPORTS WITH QUESTIONED COSTS
                                                                      Dollar Value

                                                  Number of   Questioned Unsupported
                                                   Reports      Costs       Costs

        A. For which no management
           decision has been made by the
           commencement of the period                 0           0              0


        B. Which were issued during the
           reporting period                           1        $940.89           0

            Subtotals (A+B)                           1        $940.89           0


        C. For which a management decision
           was made during the reporting
           period                                     0        $940.89           0

            (i)   Dollar value of
                  disallowed costs                    0        $940.89           0

            (ii) Dollar value of costs
                 not disallowed                       0           0              0


        D. For which no management
           decision has been made by
           the end of the reporting
           period                                     0           0              0

            Reports for which no
            management decision was
            made within six months of
            issuance                                 0            0              0




September 1998 Semiannual Report             17
                                                                       Table 2


        REPORTS WITH RECOMMENDATIONS
        THAT FUNDS BE PUT TO BETTER USE
                                                  Number of   Dollar
                                                  Reports     Value

        A. For which no management
           decision has been made by the
           commencement of the period                0         0


        B. Which were issued during the
           reporting period                          0         0

            Subtotals (A+B)                          0         0


        C. For which a management decision
           was made during the reporting
           period                                    0         0

            (i)   Dollar value of recom-
                  mendations that were
                  agreed to by management            0         0

            (ii) Dollar value of recom-
                 mendations that were
                 not agreed to by
                 management                          0          0


        D. For which no management
           decision has been made by
           the end of the reporting                  0          0
           period

            Reports for which no
            management decision was
            made within six months of
            issuance                                 0          0




September 1998 Semiannual Report             18
   Photographs in this semiannual report
              were taken by
Keven Blake, Visual Information Specialist,
           Office of Publishing
